JOINT HEARING BEFORE THE COMMITTEES OF THE

            UNITED STATES SENATE

                       AND

 UNITED STATES HOUSE OF REPRESENTATIVES

                  MAY 20, 2003




    “The Strategic Plans and Budget of the IRS”


         STATEMENT FOR THE RECORD



                Pamela J. Gardiner
             Acting Inspector General
 Treasury Inspector General for Tax Administration
Mr. Chairman and Members of the Committees, I appreciate the opportunity to
appear before you today to discuss the challenges and vulnerabilities the Internal
Revenue Service (IRS) continues to face in improving the economy, efficiency,
and effectiveness of tax administration. My comments will also address the IRS’
compliance with the IRS Restructuring and Reform Act of 1998 (RRA 98).

Three years ago when the former Treasury Inspector General for Tax
Administration (TIGTA) appeared before you and reported on the IRS’ progress
in implementing the RRA 98 provisions, the IRS was in the midst of a significant
business restructuring. The IRS was reorganizing itself into four operating
divisions to have end-to-end responsibility for defined groups of taxpayers with
similar characteristics. Key business systems modernization initiatives were
underway to redesign the IRS’ outdated computer systems, and management
was improving the organization’s customer service operations to better serve and
communicate with taxpayers. As of today, while the IRS has revamped some of
its business processes and practices, progress has been slow in implementing
critical improvements to IRS operations to provide world-class service to
taxpayers.

With the appointment of a new IRS Commissioner and the expected departures
of key executives, the IRS is also encountering tremendous leadership changes.
The new Commissioner is challenged with continuing the IRS’ reinvention efforts
in modernizing its computer systems, protecting taxpayer rights and privacy, and
ensuring tax law compliance and enforcement while providing improved
customer service. In addition to turnover in the top IRS management positions,
there are also membership changes on the IRS Oversight Board that could
impact the direction of ongoing IRS initiatives.

In this environment, TIGTA continues to devote its efforts to provide useful,
balanced information to IRS management and other decision-makers. TIGTA
audit coverage focuses on the management and performance challenges facing
the IRS. We are providing critical information on the IRS’ operational and
programmatic issues such as business systems modernization (BSM), tax
compliance, computer and physical security, performance and financial
management, customer service, returns processing, and the filing season. In
order to safeguard the IRS’ ability to collect revenue and combat fraud, waste,
and abuse, TIGTA’s investigative work is centered on:

       ¾ IRS employee integrity.
       ¾ IRS employee and infrastructure security.
       ¾ External attempts to corrupt federal tax administration.

As a result of our audit and investigative work, I believe the following issues are
the most significant challenges facing the IRS.



                                         2
Information Systems Security

After September 11, 2001, the IRS and TIGTA’s Office of Investigations took
significant actions to protect IRS employees, facilities, and computer data
infrastructure from the threat of terrorism. The process that TIGTA established to
share information with the IRS about potential terrorist threats was very positively
evaluated in an October 2002 General Accounting Office (GAO) audit report
entitled, IRS and Terrorist Related Information Sharing (GAO-03-50R).

The IRS has developed adequate security policies and procedures but has not
implemented them effectively. As a result, sensitive information remains
vulnerable to attack by hackers, terrorists, and disgruntled employees and
contractors. While recognizing that total security can never be achieved and that
there are necessary trade-offs between security and operational needs, TIGTA
continues to identify significant weaknesses in infrastructure and applications
security.

TIGTA attributes many of the IRS’ security problems to misplaced accountability.
As we reported last year, the IRS does not hold its business unit (functional)
managers accountable for the security of their systems. Instead, the Office of
Security Services took primary responsibility for this function. As a result,
functional managers did not annually assess the security of their systems, as
required by both the Office of Management and Budget Circular A-130,
Management of Federal Information Resources, and the Federal Information
Security Management Act. Significant effort will be required to transfer primary
responsibility for systems security from the Office of Security to business unit
managers. In addition, attention is needed to enhance the security awareness of
IRS managers and employees, and employees with key security responsibilities
must be better trained.

Business Systems Modernization

The IRS’ goal of providing efficient and responsive information services to its
operating divisions is heavily dependent on modernizing its core computer
systems while maintaining the existing systems. Since 2001, the BSM Program
has been deploying projects and learning valuable lessons that should help
improve future projects. Deployed projects have included an upgraded IRS
toll-free telephone system to provide capacity to route taxpayers’ calls to the
appropriate IRS employee; an Internet application that allows taxpayers to check
the status of their returns and refunds; and portions of an IRS-wide secure
technology environment and a system designed to improve the availability and
performance of modernized systems. The IRS also released an update to its
Enterprise Architecture that serves as the roadmap for current and future
modernization projects. However, the most significant and complex projects
have yet to be delivered.




                                         3
One of these projects, the Customer Account Data Engine or CADE, will
eventually replace the existing Master File of taxpayer accounts. The Master File
is the IRS’ database that stores various types of taxpayer account information
and includes individual, business, and employee plans and exempt organizations
data. Therefore, CADE will be the foundation for managing taxpayer accounts in
the IRS’ modernization plan. CADE will consist of databases and related
applications that will include processes for daily posting, settlement, refund
processing, and issue detection for taxpayer account and return data.

The CADE databases and related applications will also enable the
implementation of other modernized systems that will improve customer service
and compliance and allow the on-line posting and updating of taxpayer account
and return data. The portion of the CADE related to individual tax accounts will
be incrementally deployed in five releases, each related to a specific taxpayer
segment, over several years.

                        RELEASE          RELEASE              RELEASE          RELEASE          RELEASE
                          ONE              TWO                 THREE            FOUR              FIVE
Tax Return             1040EZ           1040EZ              1040EZ           1040 with Sch.   All remaining
Types                                   1040A               1040A            C,E,F,           individual tax
                                                                                 1
                                        1040 (without       1040 (without    94X              returns
                                        Sch. C,E,F)         Sch. C,E,F)      7202
Filing Status          Single           All (Single,        All              All              All
                                        Married, Head
                                        of Household)
Account                Refund or even   Refund or even      Full paid,       Full paid,       All accounts
Characteristics        balance          balance             refund or        refund or        not included in
                                                            balance due      balance due      previous
                       No open          No open                                               releases
                       account issues   account issues      No open          No open
                                                            account issues   account issues

Est. Returns3          6 Million        29 Million          41 Million       34 Million       12 Million
Est. Delivery
    As of April 2000   January 2002     August 2002         July 2003        July 2004        July 2005
As of March 2001       January 2002     January 2003        January 2004     January 2005     January 2006
    As of April 2003   August 2003      January 2005        TBD              TBD              TBD


The IRS and its contractor (PRIME) have made progress in delivering the CADE
project by building a substantial portion of Release I and creating a
comprehensive foundation for all five releases. However, the contractor’s
development of the CADE project has experienced significant delays and
1
  The Form 94X family of returns is used by employers to report income and unemployment taxes withheld
from employee wages.
2
  Form 720 is the Quarterly Federal Excise Tax Return.
3
  Estimated tax returns (electronic and paper) based on 1999 statistics.



                                                        4
increased costs. As shown in the previous table, the Release 1 deployment date
is now estimated to be August 2003, which is about 20 months behind its
planned delivery date.

The IRS and PRIME contractor initially estimated that Release 1 could be
delivered for approximately $51.9 million, an estimate that was revised 6 months
later to $64.6 million. The IRS and PRIME contractor have agreed to cap the
Release 1 development costs at $54.5 million. Project delays can be attributed
to underestimating the complexity of this effort and difficulties in identifying and
managing the project requirements. Specifically, these difficulties occurred in
developing the balancing, control, and reconciliation process; comprehensive
documentation for the CADE Computer Operations Handbook; computer system
naming standards, and testing activities.

As a result of delays in deploying the CADE, approximately 35 million taxpayers
did not receive the benefits of faster tax return processing, and thus faster
refunds, during the 2002 and 2003 Filing Seasons. In addition, the
modernization projects that will provide improved customer service and
compliance activities will be delayed because they are dependent upon CADE.
Based on current schedules, these customer service and compliance
improvement projects will not be deployed until at least Fiscal Year (FY) 2006 or
later. Delays in these projects will have the following adverse effects on the IRS
and taxpayers:

       ¾ The time it takes the IRS to initiate a compliance contact with a
         taxpayer will not be reduced.

       ¾ The IRS’ ability to offer one-stop service to taxpayers by allowing
         Customer Service Representatives to identify all issues a taxpayer
         might have with the IRS when a contact is initiated will be delayed.

       ¾ The IRS’ ability to answer taxpayer account-related questions with
         timely and complete data will be limited.

Customer Service

RRA 98 mandated that IRS be more responsive to customer needs. To refocus
its emphasis on helping taxpayers understand and meet their tax responsibilities,
the IRS revised its mission statement. The IRS has made some progress in
enhancing its customer service activities. For example, taxpayers have several
options from which to choose when they need assistance from the IRS in
answering tax law questions. These options include walk-in service at
nationwide Taxpayer Assistance Centers (TAC) and toll-free telephone
assistance.




                                         5
During this calendar year, TIGTA assessed the service provided by
representatives at the TACs and through the Toll-Free Telephone System.
Overall, the IRS has made improvements in providing service to the taxpaying
public. For example, during January through April 2003, IRS employees
correctly answered 25 percent more questions, provided 19 percent fewer
incorrect answers, and referred 87 percent fewer taxpayers to publications than
for this same period last year.

During our review of the TACs, TIGTA personnel visited 72 centers and posed
283 questions to IRS representatives. Results of our review are synopsized in
the following chart:

                                       Number of
                                       Responses         Percentage
        Correct Answers                    199               70
        Incorrect Answers                   73               26
        No Answer Provided –
        Referred to Publication In
        Lieu of a Response                    8                3
        Other                                 3                1


In January 2003, TIGTA also began assessing whether IRS employees were
adhering to operating guidelines by referring the tax law questions we asked,
which were outside the scope of services they have been trained to answer. The
auditors asked 157 “out of scope” questions and determined that employees did
not follow referral procedures for 105 (67 percent) of these questions.

The IRS’ accuracy in responding to taxpayers’ questions using the IRS’ Toll-Free
Telephone System was somewhat better than that at the TACs. Between
January 27 and March 13, 2003, our reviewers performed on-line monitoring of
259 taxpayers calls and determined that IRS representatives correctly answered
the taxpayers’ questions in 71 percent of the cases.

Filing Season

The tax return filing season impacts every American taxpayer and is, therefore,
always a highly critical program for the IRS. In addition to providing customer
service to American taxpayers, the IRS must coordinate tax law changes,
programs, activities, and resources to effectively plan and manage each filing
season.

Overall, the 2003 Filing Season has gone well and tax returns are being
processed timely. Based on TIGTA’s review, it appears that the IRS should
complete processing of individual returns on schedule with all tax refunds being
timely issued within the required 45 days from the filing season closing date of


                                        6
April 15. IRS data show that, as of May 9, 2003, over 52 million electronic
returns had been received. The official projection for total electronic returns is
54.3 million. Electronic returns have increased by 12 percent from this time last
year. In addition, over 69 million paper returns had been received. The official
projection for total paper returns is 78 million. Paper returns have decreased by
8 percent from this time last year.

Many new and significant tax law provisions affected taxpayers’ Tax Year (TY)
2002 individual income tax returns, including two Economic Growth and Tax
Relief Reconciliation Act of 2001 provisions involving education expenses and
retirement savings. These provisions included changes to education savings
accounts, qualified tuition programs, and individual retirement arrangements
(IRA). In addition, the Act created a new tuition and fees deduction and a new
retirement savings contribution credit (also referred to as “saver’s credit”). These
changes were considered significant because they could affect an estimated
86.5 million taxpayers by providing tax benefits of up to $7.6 billion in FY 2003.
Properly implementing such changes required the IRS to reprogram its computer
systems to ensure that taxpayers received the tax benefits allowed by the new
provisions.

TIGTA’s analysis of IRS computer programming requests to prepare for the filing
season showed that the requests were timely submitted and were generally
accurate; however, some errors and omissions were identified. For example,
computer programming requests to implement the new retirement savings
contribution credit and request changes to the IRA deduction contained errors
that could have denied credits or deductions to some taxpayers. Also, omissions
in computer programming requests may have resulted in the loss of tax revenue
by allowing certain taxpayers to receive larger credits or deductions than they
were eligible to receive. This possibility exists for the new retirement savings
contribution credit, the IRA deduction, and the student loan interest deduction.


The IRS Restructuring and Reform Act of 1998

Due to the comprehensive nature of this reform law, the IRS has dedicated
significant attention and resources toward implementing the RRA 98 provisions.
RRA 98 included fundamental changes to tax law procedures and 71 provisions
that increase or further protect taxpayers’ rights. The IRS has taken several
actions to improve compliance with these provisions. For example, in some
instances, the IRS added a higher level of managerial review, implemented new
computer controls to prevent certain violations from occurring, and provided
additional training and guidance to help employees and managers understand
the provisions’ requirements. TIGTA has reported that the IRS has fully
implemented three taxpayer rights provisions - Mitigation of Failure to Deposit
Penalty, Seizure of Property, and Taxpayer Advocate-Hardships. The IRS is




                                         7
generally compliant with two other provisions – Illegal Tax Protestor Designation
and Collection Due Process for Liens and Levies.
RRA 98 required TIGTA to review 10 of the 71 taxpayer rights provisions, as well
as 2 other taxpayer rights provisions in prior legislation. TIGTA is currently in the
fifth review cycle assessing the mandatory RRA 98 provisions. TIGTA’s most
recent audit results on these taxpayer rights provisions are as follows:

   ¾ Notice of Levy – Most levies are computer generated and subjected to
     systemic controls that effectively ensure that taxpayers are informed of
     their appeal rights at least 30 days prior to receiving a systemically
     generated levy. In some circumstances, however, IRS employees must
     issue manual levies. Though managers approve and review manual
     levies issued by Automated Collection System employees, manual levies
     issued by revenue officers are not required to be reviewed and approved
     by managers. This significantly increases the risk of taxpayers not having
     their appeal rights properly protected.
   ¾ Restrictions on the use of enforcement statistics to evaluate employees –
     A review of 74 judgmentally sampled enforcement employees’
     performance and related supervisory documentation prepared between
     October 1, 2001, and August 31, 2002, revealed no instances of the use
     of tax enforcement results, production quotas, or goals to evaluate
     employee performance. There was also improvement over the previous
     year in documenting the evaluation of employees on the fair and equitable
     treatment of taxpayers. In addition, a review of 21 statistically sampled
     supervisors showed the IRS completed the required consolidated office
     certification memoranda on whether tax enforcement results were used in
     a prohibited manner.

   ¾ Notice of Lien – An estimated 14,695 lien notifications, out of a
     population of 367,385 lien notices prepared between August 1, 2001, and
     June 30, 2002, were not mailed to the taxpayer, the taxpayer’s spouse, or
     to the taxpayer’s business partners; or were not mailed to the taxpayer’s
     or spouse’s last known address. Taxpayer rights could be affected
     because the taxpayer who failed to receive a notice or who received a late
     notice might not be aware of the right to appeal or could have less than
     the 30-day period allowed by the law to request a hearing.

   ¾ Seizures – TIGTA determined that in a statistical sample of 102 seizures
     from the 218 seizures conducted by the IRS between October 2001 and
     June 2002, the IRS complied with legal provisions and internal procedures
     when seizing taxpayers’ property for payment of delinquent taxes.

   ¾ Illegal Tax Protestor (ITP) Designations – The IRS has not reintroduced
     past ITP codes on the Master File, and formerly coded ITP taxpayer
     accounts have not been reassigned to a similar ITP designation. In


                                          8
   addition, the IRS does not have any current publications with ITP
   references. However, IRS employees continue to make references to
   taxpayers as ITPs and other similar designations in case narratives.
   TIGTA identified 321 taxpayers that were potentially affected due to
   improper designations. We have not reported that these taxpayers have
   been harmed by the designations. Only a thorough review of each
   taxpayer’s case and the treatment accorded that taxpayer would
   determine if these taxpayers have been harmed. In our most recent report
   on this subject, TIGTA recommended that the IRS review each case
   where the reference to ITP or similar designation had been identified and
   make such determinations.

   In its response to the draft report, the IRS disagreed with our
   determination that in order to comply with this provision, IRS employees
   should not designate taxpayers as ITPs or similar designations in case
   histories.

¾ Assessment Statute of Limitations – Employees properly advised
  taxpayers of their rights to refuse or restrict the scope of the statute
  extension in 32 of 48 (67 percent) of the tax returns sampled. In 16 of
  48 (33 percent) of the tax returns sampled, TIGTA could not determine if
  employees advised taxpayers of their rights because related case files
  did not contain a record that taxpayers had been advised of their rights.
  In 22 of the 24 (92 percent) jointly filed returns sampled, there was no
  documentation in the related case files that each taxpayer listed on the
  return was separately informed of his or her rights (i.e., dual notification).

¾ Denials of Requests for Information Under the Freedom of Information
  Act – TIGTA identified an estimated 458 responses to Freedom of
  Information Act or Privacy Act requests where information was improperly
  withheld, out of 4,610 requests for information that were denied in whole
  or part, or where the IRS replied that responsive records were not
  available. There were also an estimated 1,052 responses to Internal
  Revenue Code Section 6103 requests where information was improperly
  withheld, out of an estimated population of 8,612 requests that were
  denied or partially denied or where requesters were told that records could
  not be located.

¾ Collection Due Process – The IRS substantially complied with the
  requirements of the law and ensured taxpayers’ appeal rights were
  protected in 85 of 87 (98 percent) appeal cases reviewed. In the
  remaining 2 cases, TIGTA did not conclude that the noncompliance
  resulted in a legal violation of the taxpayer’s Collection Due Process
  (CDP) rights since collection actions were not initiated. In addition,
  approximately 94 percent of the CDP determination letters provided to
  taxpayers (82 of 87 letters) followed the established IRS guidelines. This



                                      9
      was a noticeable improvement over prior audit results when approximately
      14 percent of the determination letters were determined deficient.

Neither TIGTA nor the IRS could evaluate the IRS’ compliance with the following
four provisions since IRS management information systems are not available to
track the specific cases:

      ¾ Restrictions on directly contacting taxpayers instead of authorized
        representatives.
      ¾ Taxpayer complaints.
      ¾ Separated or divorced joint filer requests.
      ¾ Fair Debt Collection Practices Act (FDCPA) Violations – The IRS does
        track potential FDCPA violations on its computer systems; however,
        we determined that data on one system may not always be complete
        and accurate. Based on information recorded as potential FDCPA
        violations on the IRS’ computer system, TIGTA identified two violations
        that occurred after July 22, 1998, that resulted in administrative actions
        being taken against employees. The IRS had no closed cases in
        which the IRS paid any money to taxpayers for civil actions resulting
        from FDCPA violations.

Tax Compliance Efforts

The IRS’ goal of providing world-class service to taxpayers hinges on the theory
that, if the IRS provides the right mix of education, support, and up-front problem
solving to taxpayers, the overall rate of voluntary compliance with the tax laws
will increase. The compliance program (examining tax returns and collecting tax
liabilities) would then address those taxpayers who purposefully did not comply.
The challenge to IRS management is to establish a tax compliance program that
identifies those citizens who do not meet their tax obligations, either by not
paying the correct amount of tax or not filing proper tax returns.

Enforcement actions against individuals and businesses that purposefully
conceal tax liabilities or even refuse to submit tax returns have fallen
dramatically, despite concerns that tax cheating remains at high levels. The
following chart exhibits the fact that, since FY 1996, the level of IRS enforcement
activities has significantly declined.




                                        10
                                           Overall Decline
       Enforcement Action                 FY 1996 – FY 2002
    Face-to-Face Audits                         70%
    Correspondence Audits                       56%
    Liens                                       34%
    Levies                                      79%
    Seizures                                    97%


The overall decline in enforcement actions has been primarily attributed to a
long-term reduction in enforcement staffing, to redirection of resources to
customer service functions during the filing season, a decline in direct
examination time, and to IRS employees’ concerns over the mandatory
termination provision in Section 1203 of RRA 98.

IRS management and many stakeholders have been concerned about the
decline in enforcement activities. However, the IRS has not conducted Taxpayer
Compliance Measurement Program audits since 1988. Therefore, it currently
has no reliable method to measure voluntary compliance or the effect that
increased customer service and diversion of compliance resources are having on
voluntary compliance. TIGTA believes that the ongoing National Research
Program is a much-needed first step for providing the information necessary to
gauge compliance levels and direct IRS compliance resources towards areas
where attention is most needed.

While the decline in enforcement actions since FY 1996 has been dramatic, there
are recent indications that the decline in some categories of enforcement actions
and results has stabilized and, in some cases, shown improvement. For
example, the IRS’ FY 2002 compliance efforts and results were mixed, but
showed some continuing positive changes that started in FY 2001. Specifically,
the level of compliance activities and the results obtained in many, but not all,
Collection areas in FY 2002 showed a continuing increase. The number of
examinations of tax returns increased in FY 2002, but the overall percentage of
tax returns examined stayed about the same due to increases in the number of
tax returns filed. The IRS is taking a number of steps to enhance its compliance
programs, including:

¾ Conducting the National Research Program, which is designed to measure
  the level of compliance nationwide.
¾ Restructuring many Collection and Examination processes.
¾ Focusing on known compliance problems through programs like the Offshore
  Voluntary Compliance Initiative and the use of Private Collection Agencies.




                                        11
Section 1203 Violations

In addition to our audit responsibilities, RRA 98 charges TIGTA with investigating
Section 1203 violations. Section 1203 identifies standards of conduct for IRS
employees that are intended to address serious and willful acts of misconduct.
Section 1203 requires the Commissioner of Internal Revenue to terminate the
employment of any IRS employee found guilty of any 1 of 10 specific acts or
omissions. TIGTA’s role in investigating these allegations of employee
misconduct serves to protect taxpayer rights and assure integrity in IRS
operations.

The IRS monitors Section 1203 complaints in its Automated Labor and Employee
Relations Tracking System - known by its acronym, “ALERTS.” The vast majority
of Section 1203 complaints recorded in ALERTS have alleged that an IRS
employee violated a provision of the Internal Revenue Manual or the Internal
Revenue Code in order to retaliate against or harass another person. The
second category, as measured by the number of complaints, involves the
employee’s understatement of Federal tax liabilities.

The IRS receives and adjudicates numerous Section 1203 allegations where no
independent TIGTA investigation is needed. When TIGTA involvement is
warranted, our focus is to determine the facts of the situation as well as the
intent of the violating employee. An employee’s intent is an essential element
that must be present for Section 1203 disciplinary action to be taken. As of
March 31, 2003, ALERTS indicated that 96 employees have been fired and
202 employees have resigned or retired as a result of TIGTA and IRS
investigations. Since the inception of Section 1203, TIGTA and the IRS have
received a combined total of 5,605 Section 1203 complaints.

TIGTA and the IRS are working together to continuously improve the process of
receiving, investigating, and adjudicating alleged violations of Section 1203. In
March 2002, a streamlined process was implemented which, enabled TIGTA to
make an early differentiation between those 1203 allegations that are valid and
those that are not. As a result, TIGTA has been able to devote its resources to
the investigation of bona fide 1203 allegations and other employee misconduct.

Mr. Chairman and Members of the Committees, I appreciate the opportunity to
share with you today the more significant challenges that confront the new
Commissioner and IRS senior management. Although the IRS has
accomplished a great deal since the passage of RRA 98, much more remains to
be done. TIGTA will continue its efforts to provide reliable and objective
assessments of the IRS’ progress in balancing compliance and customer service,
and to investigate employee misconduct or external threats that jeopardize the
integrity, efficiency, and effectiveness of the nation’s tax administration system.




                                        12
